                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM
                                                                   i

Case Number: 1-06-04-0008                                                                  Page '1 of 1



     This investigation was opened based on a complaint received from a student' that advised slhe
     had not received all of the funding s h e was entitled to under an NSF award2.

     Investigation, which included interviews and review of docuinents at the awardee institution,
     revealed that complainant had in fact received stipends for each month slhe submitted tiinesheets
     for.

     In light of the above, no further investigative effort is necessary in this matter.
                                                                   ,
     Accordingly, this case is closed.
